fT

C@QCKLE

2311 Douglas Street i
Omaha, Nebraska 68102-1214 Le 84 1B rief's
1-800-225-6964
(402) 342-2831

Fax: (402) 342-4850 No. 19-1021

MICAH JESSOP, ET AL.,
Petitioners,

Vv.
CITY OF FRESNO, ET AL.,
Respondents.

AFFIDAVIT OF SERVICE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 17th day of March, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the MOTION FOR LEAVE TO FILE AND BRIEF OF THE
INSTITUTE FOR JUSTICE AS AMICUS CURIAE SUPPORTING PETITIONERS in the above entitled case. All parties
required to.be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
PATRICK JAICOMO ANYA BIDWELL
Counsel of Record INSTITUTE FOR JUSTICE
INSTITUTE FOR JUSTICE 816 Congress Avenue
901 North Glebe Road Suite 960
Suite 900 Austin, TX 78701
Arlington, VA 22203 (512) 480-5936
(703) 682-9320 abidwell@ij.org
pjaicomo@ij.org

Subscribed and sworn to before me this 17th day of March, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

    

GENERAL HOTARY-State of Mebraska
RENEE J. GOSS

My Comm. Exp. September 5, 2023.

 

Notary Public
 

Attorneys for Petitioners

Neal Kumar Katyal Hogan Lovells US LLP
Counsel of Record 555 Thirteenth St., N.W.
Washington, DC 20004

neal.katyal@hoganlovells.com

Party name: Micah Jessop, et al.

 

 

Attorneys for Respondents

Daniel P. Barer Pollak, Vida and Barer
Counsel of Record 11500 West Olympic Blvd.
Suite 400

Los Angeles, CA 90064

daniel@pollakvida.com

Party name: City of Fresno, et al.

 

 
